No.20-471
IN THE

Supreme Court of the United States
Y.W.,
Petitioner,
vs.
PATRICIA AUFIERO, UNKNOWN TEACHER, AND THE NEW MILFORD BOARD
OF EDUCATION,
Respondents.

On Petition for a Writ of Certiorari
to the Supreme Court of the United States

CERTIFICATION OF SERVICE
STEPHEN R. FOGARTY
FOGARTY & HARA, ESQS.
21-00 Route 208 South
Fair Lawn, New Jersey 07410
(201) 791-3340
(201) 791-3432 (Facsimile)
sfogarty@fogartyandhara.com
Counsel for Respondents New Milford Board of Education,
Patricia Aufiero, and Unknown Teacher

I certify that on December 9, 2020, an original copy of the
Respondents, New Milford Board of Education, Patricia Aufiero, and
Unknown Teacher, Brief in Opposition was filed electronically and a hard
copy forwarded to the United States Supreme Court Clerk, 1 First Street NE,
Washington, D.C. 20543 via regular mail.

{F&H00154351.DOC/1}

I further certify that the attorney for the Petitioner, Leopold Gross,
Esq., received a copy of the aforementioned brief via electronically on
December 9, 2020.
I further certify that the foregoing statements made by me are true. I
am aware that if any of the foregoing statements made by me are willfully
false, I am subject to punishment.
_s/Donna Hubay
DONNA HUBAY

2
{F&H00154351.DOC/1}

